Important Information about your Platinum Mastercard®
Effective Date: September 1, 2021
CARDHOLDER AGREEMENT
PRICING AGREEMENT

INTEREST RATES & INTEREST CHARGES
Annual Percentage Rate (APR) for Purchases
and Balance Transfers

3.99%introductory APR for six months after account opening.
After that, your APR will be 7.25%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Penalty APR and When it Applies

24.25%
This APR will vary with the market based on the Prime Rate.
29.24%
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your account if you make a late payment.
How Long Will the Penalty APR Apply?
If your APRs are increased for this reason, the Penalty APR will apply until you
make six consecutive minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date of each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50

For Credit Card tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore/
FEES

Annual Fee

None

Transaction Fees
Balance Transfer

Either $10 or 3% of the amount of each transfer, whichever is greater.

Cash Advance and Convenience Checks

Either $10 or 4% of the amount of each cash advance and convenience
check, whichever is greater.

Foreign Transaction
International transaction fee

3% of the transaction amount in U.S. dollars.

Penalty Fees
Late Payment

Up to $10.00

Returned Payment

Up to $30.00

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

How We Will Calculate Your Balance:We use a method called "average daily balance (including currenttransactions)." See
Balance Computation Method within the Pricing Agreement for more details.
Loss of Introductory APR:We may end your introductory APR and apply the Penalty APR if you make a latepayment. The Penalty
APR will vary with the market based on the Prime Rate.
Billing Rights:Information on your rights to dispute transactions and how to exercise those rights is providedin your Cardholder
Agreement.
PRICING AGREEMENT CONTINUED
1. Terminology.For purposes of this Pricing Agreement, and the Account Agreement, (collectively referred to as the “Cardholder
Agreement”) each Account Holder/Cardholder is referred to as “cardholder” or "you", whether one or more, and First Interstate
Bank is referred to as “Bank,” "Issuer,” "us," or "we".
2. Interest Rates.
a. Periodic Rate and Annual Percentage Rate.The Annual Percentage Rate corresponds to a Periodic Rate. The Annual
Percentage Rate is equal to the Periodic Rate multiplied by 12 and the Periodic Rate is equal to the Annual Percentage
Rate divided by 12. Rates other than the introductory rate vary with the market based on the Prime Rate as described
further below.
b. Purchases and Balance Transfers.
i. Introductory Rate.The introductory rate for Purchases and Balance Transfers is 0.33% per month,
corresponding to an Annual Percentage Rate of 3.99%. Unless a late payment is made and the introductory rate
is ended, the introductory rate applies for twelve months.
ii. The Periodic Rate for subsequent Purchases and Balance Transfers and all existing balances related to
Purchases and Balance Transfers shall be 0.6% per month, corresponding to an Annual Percentage Rate 7.25%.
The Periodic Rate and corresponding Annual Percentage Rate for Purchases and Balance Transfers varies with
the Prime Rate (defined below) and therefore may decrease or increase as the Prime Rate varies. The Annual
Percentage Rate for Purchases and Balance Transfers is determined monthly on the first day of the billing cycle
by adding 4 percentage points to the Prime Rate.

c. Cash Advances.The Periodic Rate for Cash Advances is 2.02% per month, corresponding to an Annual Percentage
Rate of 24.25%. The Periodic Rate and corresponding Annual Percentage Rate for Cash Advances varies with the Prime
Rate (defined below) and therefore may decrease or increase as the Prime Rate varies. The Annual Percentage Rate for
Cash Advances is determined monthly on the first day of the billing cycle by adding 21 percentage points to the Prime
Rate.
d. Penalty Rate.The penalty Annual Percentage Rate will apply if a required payment is one time delinquent over sixty (60)
days. The Periodic Rate that will apply as a penalty to all balances is 2.44% per month, corresponding to an Annual
Percentage Rate of 29.24%. The Periodic Rate and Annual Percentage Rate applicable as a penalty varies with the
Prime Rate and therefore may decrease or increase as the Prime Rate varies. The Annual Percentage Rate applicable
as a penalty is determined monthly on the first day of the billing cycle by adding 25.99 percentage points to the Prime
Rate.
e. Prime Rate.The Prime Rate used for every adjustment referenced above is the highest "U.S. prime rate" as published in
the "Money Rates" section of The Wall Street Journal on the first publication day of the month in the month preceding the
change.
f. Billing Cycle.Each monthly statement reflects a billing cycle. A billing cycle is a time period that ends on a closing date
determined by us and begins on the day after the closing date of the previous billing cycle.

3. Balance Computation Method.As indicated above, we use a method called "average daily balance (including current
transactions)" to calculate your balance. We figure the interest charge on your Account by applying the Periodic Rate to the
"average daily balance" of your Account. To get the "average daily balance" we take the beginning balance of your Account
each day, add any new purchases and advances, and subtract any unpaid interest or other finance charges and any payments
or credits. This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide the total by the
number of days in the billing cycle. This gives us the "average daily balance."
4. Minimum Payment.The minimum payment required is the New Balance shown on your statement if the amount is equal to or

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

less than $20.00. If the New Balance shown on your statement exceeds $20.00, the minimum payment is 3.00% of that portion
of the New Balance which does not exceed your credit limit (rounded to the nearest dollar), or $20.00, whichever is greater, plus
the entire portion of the New Balance in excess of your credit limit, plus any amount past due.
5. Balance Transfer, Cash Advance and Convenience Check Fees.A Balance Transfer Fee of either $10.00 or 3.00% of the
amount of each transfer, whichever is greater, will apply. A Cash Advance Fee of either $10.00 or 4.00% of the amount of each
cash advance, whichever is greater, will apply if you obtain funds through an automated teller machine (ATM) or a financial
institution, make a wire transfer or obtain a money order. A Convenience Check Fee of either $10.00 or 4.00% of the amount for
each convenience check will apply. We will begin charging interest on Balance Transfers, Cash Advances and Convenience
Checks on the transaction date.
6. Foreign Transactions.If you make a purchase or cash advance in foreign currency, the transaction will be converted into U.S.
Dollars by Mastercard®. The exchange rate applied to such transactions is applied on the date that the transaction is processed
and is either (i) a wholesale exchange rate selected by Mastercard®, or (ii) a government-mandated rate. The exchange rate
used on the processing date may differ from the rate that would have been used on the transaction date or the Credit Card
statement posting date. In addition to the exchange rate, we will charge the applicable international transaction fee.
7. Late Payment Penalty Fee.If the minimum required payment is not received within ten (10) days after the payment due date,
the late payment penalty fee will be imposed.
8. Balance Transfers.Balance Transfers are subject to the Balance Transfer Fee disclosed in the Pricing Agreement. We will
evaluate your Balance Transfer requests upon receipt. The total amount of your requests, including fees and interest charges,
cannot exceed your available credit. If your Balance Transfer requests exceed your credit limit, we may either decline your
Balance Transfer request or send less than the full amount requested to the designated payees. Each Balance Transfer will
reduce your available credit just like any other transaction. It may take up to three weeks to process your Balance Transfer(s),
so you may still need to make payments to your other accounts to keep them current. We will not process any Balance Transfer
requests for any other account or loan that is issued by us.
9. Overdraft Protection.Overdraft Protection is an available option on your Account but requires you to enroll and qualify for this
service separately. Overdraft transfers to your eligible First Interstate Bank deposit account from your First Interstate Bank credit
card account will be subject to the Cash Advance Annual Percentage Rate disclosed under the Pricing Agreement of this
Cardholder Agreement. The Cash Advance Transaction Fees do not apply.
10. Expedited Credit Card Production and Delivery Charge.Upon request, we will rush your Credit Card and charge you a onetime fee of $28.50.
11. Expedited Payment Fee.You may be charged a convenience fee of up to $15.00 to make an expedited payment over the
phone with the assistance of a live customer service representative.
12. Research Charges.We will charge $20 per hour, $10.00 minimum per project and $1.00 per Credit Card statement.
13. Security Interests.If you have other loans or credit extensions from us, or take out other loans or credit extensions with us in
the future, collateral securing those loans or credit extensions may also secure your obligations under this Cardholder
Agreement. However, unless you expressly agree otherwise, your household goods and dwelling will not secure your obligations
under this Cardholder Agreement even if we have, or later acquire, a security interest in the household goods or a mortgage on
the dwelling. If you have executed a written agreement granting a security interest in any deposit accounts (certificates of
deposit or checking, savings, or share accounts) or other funds held by us to secure your obligations under this Credit Card
plan, such accounts and/or funds are additional security for your obligations to us arising from the use of your Credit Card.

ACCOUNT AGREEMENT – TERMS GOVERNING THE USE OF YOUR CREDIT CARD
By signing or using the Credit Card to be issued by us, you acknowledge receipt of the Cardholder Agreement and agree with us as
follows:
1. Credit Card Use. You may use your Credit Card to purchase goods and services ("Purchases") from participating merchants.
2. Promise to Pay. You shall be liable and agree to pay us for Purchases made by, or for Cash Advances extended to, you or
anyone else using such Credit Card unless the use of such Credit Card is by a person other than you (a) who does not have
actual, implied or apparent authority for such use, and (b) from which you received no benefit. Additionally, you shall be jointly
and severally liable and agree to pay for all Purchases and Cash Advances obtained through the use of any other Credit Card
bearing your Account number that has been issued to another person by reason of such person being a member of your family,
or otherwise issued upon your request (all such Credit Cards bearing your Account number are herein collectively called
"Related Credit Cards").
3. Annual Fee. You agree to pay to us an annual fee (if and as stated in the Pricing Agreement Disclosures) for participation in our

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

Credit Card plan. Such annual fee shall be imposed whether or not you use the Credit Card to obtain Purchases and Cash
Advances. The annual fee shall be charged to your Account each year in the month of our choice. The annual fee is not
refundable in the event of termination of the Account by either you or us unless otherwise provided for by law.
4. Our Right to Cancel Your Account. We can cancel your Account at any time, or reduce the amount of your credit line, without
notice to you, except in those situations where notice is required by law. If we cancel your Account, you agree to destroy all
Credit Cards issued on your Account by cutting them in half and returning them to us. You will continue to be responsible for full
payment of the balance on your Account and all charges to your Account, including those not yet received by us, as well as
subsequent interest and other charges. Each Credit Card is our property, and you agree that the Credit Cards are not
transferable and to surrender any Credit Card upon demand.
5. Credit Limit. You shall not use the Credit Card or permit the use of Related Credit Cards to obtain Purchases or Cash Advances
which will increase your indebtedness to us to an amount in excess of the limit established by us.
6. Credit Card Acceptance. All Purchases and Cash Advances are subject to the approval of the Seller and Cash Advancing Bank,
respectively, and we shall not be responsible for refusal by any Seller or Cash Advancing Bank to honor the Credit Card or any
Related Credit Card. Any refund, adjustment or credit allowed by Seller shall not be by cash but rather by a credit advice to us,
which shall be shown as a credit on your Account statement with us.
7. Statements. We will send to you, at monthly intervals determined by us, a statement reflecting for the prior monthly period all
Credit Card and Related Credit Card transactions. Such statement shall be deemed correct and accepted by you and all holders
of Related Credit Cards unless we are notified to the contrary in writing within 60 days of mailing of such statement. You will pay
such statement by remitting to us within 25 days of the closing date reflected on the statement either the full amount billed or, at
your option, an installment equal to at least the required minimum payment stated above.
8. Interest. Interest on Balance Transfers, Cash Advances and Purchases will be charged in accordance with the calculation
method referred to in the Pricing Agreement. The rate of interest shall be established by us from time to time, but shall never
exceed the maximum rate permitted by law.
9. Default, Acceleration and Security. You will be in default, and we may, without notifying you, temporarily suspend your credit,
close your Account, cancel all Credit Cards issued on it and require immediate payment of your entire balance if any of the
following occurs:
a. You fail to make a payment when it is due.
b. You do not follow the terms of this Agreement in any way.
c. You have made a false or misleading statement on the application for your Account.
d. You fail to pay any other loan you owe us.
e. You become insolvent or die.
f. There is an attachment, execution or levy against your property or you make an assignment for the benefit of creditors.
g. A bankruptcy is filed by or against you or your spouse.
h. A guardian, conservator, receiver, custodian or trustee is appointed for you.
i. You are generally not paying your debts as they become due.
j. There has been a material adverse change in your financial standing.

You agree to pay all costs incurred by us in collecting our indebtedness or in enforcing this Cardholder Agreement, including
reasonable attorney’s and paralegal fees and also those costs, expenses and attorney’s and paralegal fees incurred in
appellate, bankruptcy and post-judgment proceedings, except to the extent such costs, fees or expenses are prohibited by law.
10. Closing Your Account. You may close your Account at any time. If you close your Account, in order to avoid the accrual of
interest and other fees, you must immediately pay everything you owe us, including any amounts owed but not yet billed. If you
do not pay, the Account will continue to accrue interest and other fees, and will remain subject to all the terms and conditions of
this Cardholder Agreement. Upon closing the Account, you also agree to destroy all Credit Card(s) and any unused
Convenience Checks. If you close your Account, Credit Cards or Convenience Checks may not be used.
11. Change in Terms of Your Account. We can change any terms of your Account at any time. We will provide you with such notice
as is required by law by mailing a notice to you at the latest address shown in our records.
12. Notification of Changes. You agree to notify us within 20 days of any change in name, mailing address, telephone number or
place of employment.

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

13. Governing Law. Except to the extent that Federal law is applicable, the validity, construction and enforcement of this Cardholder
Agreement and all matters arising out of the issuance and use of the Credit Card and your Account shall be governed by and
interpreted in accordance with the laws of the State of Montana regardless of where you may reside or use your Account.
14. Liability for Unauthorized Credit Card Use/Lost or Stolen Credit Card. If you notice the loss or theft of your Credit Card or
possible unauthorized use of your Credit Card, you should write to us immediately at:

First Interstate Bank
Payment Services
P.O. Box 30918
Billings, MT 59116-0918
Or call us at (866) 839-3485
You will not be liable for any unauthorized use that occurs after you notify us. You may, however, be liable for any unauthorized
use that occurs before your notice to us. In any case, your liability will not exceed $50.00.
You agree to notify us immediately if your Credit Card is ever lost or stolen or if any unauthorized use may have occurred. You
agree to assist us in determining the facts, circumstances and other pertinent information relating to any loss, theft or possible
unauthorized use of your Credit Card and to comply with such procedures as we may require in connection with our
investigation, including assisting in the prosecution of any unauthorized user.
15. Telephone Monitoring. You agree that we and our agents or service companies may monitor and/or record any telephone
communications with you or any cardholder.
16. Payments must be made to us in U.S. Dollars drawn on a U.S. bank. Subject to applicable law, payments may be applied to
what you owe us in any manner we choose in our sole discretion. We may accept checks marked "Payment in Full" or with
words of similar effect without losing any of our rights to collect the full balance of our Account.
17. Reevaluation of Credit. We can reinvestigate and reevaluate any information you provided on your credit application at any time,
and in the course of doing so, we may ask you for additional information, request credit bureau reports and/or otherwise verify
your current credit standing. You also acknowledge that we may periodically evaluate your creditworthiness utilizing a credit
scoring process. The results of these investigations and evaluations could lead to a reduction or termination of your credit limit,
changes in the APR applicable to your Account, or changes in other terms of your Account. As required by law, you will be
notified of these changes.
18. Release of Information. You agree that we may release information to others, such as credit bureaus, regarding the status and
history of your Account. However, we are not obligated to release any such information to anyone unless we are required by law
to do so.
19. Prohibited Transactions. You shall not use the Credit Card for any illegal transaction. In addition, Federal Law, the Unlawful
Internet Gambling Enforcement Act of 2006 prohibits commercial customers from conducting transactions related to illegal
Internet gambling. As our credit card customer you agree to notify us if your Account is ever used for Internet gambling, even if
you believe the activity to be legal. If you do not, we may close your Account.
20. If, for any reason, we do not make use of any of our rights under this Cardholder Agreement on a particular occasion, that will
not limit our rights in the future in any way.
21. Mastercard® Rules and Regulations. You agree that your Account shall be subject to all applicable rules and regulations of
Mastercard® Worldwide, as applicable, as well as all applicable laws. If there is any conflict between the provisions of this
Cardholder Agreement and the rules and regulations of Mastercard® Worldwide, the rules and regulations of Mastercard®
Worldwide shall control.

YOUR BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
First Interstate Bank
Payment Services
Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

PO Box 30918
Billings, MT 59116-0918
You may also contact us by email at creditcards@fib.com
In your letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Credit Card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your Credit Card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
First Interstate Bank
Payment Services
PO Box 30918
Billings, MT 59116-0918
You may also contact us by email at creditcards@fib.com
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Important Notice – Please Read Carefully
We may report information about your account to
credit bureaus. Late payments, missed payments, or
other defaults on your account may be reflected in your
credit report.
Please contact Payment Services with any questions
about this notice at 1-888-833-3454.

Platinum Mastercard® Intro (Tier A) 0921 11PNSLR

FACT ACT NOTICE

Your Credit Report and the Price You Pay for Credit

What is a credit report?

A credit report is a record of your credit history. It includes information
about whether you pay your bills on time and how much you owe to creditors.

How did we use your credit
report?

We used information from your credit report to set the terms of the credit we
are offering you, such as the Annual Percentage Rate.
The terms offered to you may be less favorable than the terms offered to
consumers who have better credit histories.

What if there are mistakes in
your credit report?

You have a right to dispute any inaccurate information in your credit report.
If you find mistakes on your credit report, contact Equifax, which is the
consumer reporting agency from which we obtained your credit report.
It is a good idea to check your credit report to make sure the information it
contains is accurate.

How can you obtain a copy of
your credit report?

How can you get more
information about credit
reports?

Under federal law, you have the right to obtain a copy of your credit report
without charge for 60 days after you receive this notice. To obtain your free
report, contact Equifax:
By telephone:

Call toll-free: 1-800-685-1111

By mail:

Mail your written request to:
PO Box 740241
Atlanta, GA 30374

On the web:

Visit www.equifax.com/fcra/

For more information about credit reports and your rights under federal law,
visit the Consumer Financial Protection Bureau's web site at
www.consumerfinance.gov/learnmore

Department of Defense Credit Card Disclosure
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products
sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees
for a credit card account).
Payment obligation for a consumer credit card is as follows:
The minimum payment required is the New Balance shown on the statement if the amount is equal to or less than
$20.00. If the New Balance shown on the statement exceeds $20.00, the minimum payment is 3.00% of that
portion of the New Balance which does not exceed your credit limit (rounded to the nearest dollar), or $20.00,
whichever is greater, plus the entire potion of the New Balance in excess of your credit limit, plus any amount past
due.
Please call (888) 833-3445 to have this Disclosure provided to you orally.

CONVENIENCE BENEFITS
Local Customer Service

Receive the service you’ve come to expect with First Interstate Bank. Stop by your local
branch or call our Billings-based customer service center to make a payment or to ask
questions regarding your account. We work together to provide the quality service you
deserve. To take advantage of our local customer service call 1-888-833-3454 or simply
email us at creditcards@fib.com.

eZCardInfo.com

Stay in touch with your credit card account 24 hours a day, seven days a week.
eZCardInfo provides you with information and services that make your credit card easier
to manage than ever before.
With the click of a mouse, view important information about your account including
balances, available credit, current and past statements and transaction information since
your last statement. You can also make your life simpler by signing up for electronic
statements or paying your bill online. Visit www.eZCardInfo.com to get started!

Don’t want to remember another password? IBank customers can access their account

SECURITY BENEFITS
Zero Liability

Have peace of mind knowing that First Interstate Bank won’t hold you responsible for
“unauthorized purchases” on your Mastercard. Zero liability applies to purchases made in
the store, over the telephone or online. Call toll free at 1-888-833-3454.

Mastercard® Global Service

Get emergency assistance virtually anytime, anywhere, and in any language. Mastercard
Global Service helps you report a Lost or Stolen Card, obtain an Emergency Card
Replacement or Cash Advance, find an ATM location, and answer questions regarding your
account. Call toll free at 1-800-MASTERCARD.

24-Hour Cardholder Assistance

Receive call center support 24/7 that can help you with account information, card
activation or reporting your card lost or stolen. Contact 1-888-833-3454.

Mastercard® SecureCode

SecureCode helps ensure that only you can use your Mastercard® when shopping online.
Using a private code tied specifically to your Mastercard account, SecureCode helps
prevent unauthorized purchases. For more details visit www.Mastercard.us/securecode.

Fraud Alert Management

Security is a top priority at First Interstate Bank that’s why we utilize a Fraud Alert
Management detection system which continuously monitors your First Interstate Bank
Mastercard activity to help identify and prevent fraudulent transactions on your account.
If suspicious charges or transactions outside of your normal spending patterns appear on
your card, you may receive an automated phone call from Fraud Alert Management on
behalf of First Interstate Bank to verify the activity on your account. If the Automated Call
System cannot reach you, a temporary block may be placed on your card until you validate
the transaction/activity in question.
For Fraud Alert Management support within the US call 1-800-437-9392. If you’re traveling
or reside outside Canada or the US, you may obtain Fraud Alert Management support by
calling collect at 1-727-227-2447.

SECURITY BENEFITS (CONTINUED)
Identity Theft Resolution
Services

This benefit can assist you with the process of restoring your identity . Services include:
 24/7 access to certified resolution specialists who are experts in their field, and know
how to help you restore your identity. They can assist with filing police reports, providing
a cash advance, executing message relay, and facilitating emergency travel
arrangements,
 Notification to all three major credit reporting agencies to place blocks on your
records and obtain free credit reports,
 Assistance with completing paperwork to alert various parties of the potential fraud,
 Assistance with cancellation of all lost cards in wallet,
 Provide information to assist with card replacement,
 Education about how Identity Theft can occur and protective measures to avoid further
occurrences, and
 Follow-ups throughout the process to help ensure progress is being made in
restoring your identity.
Contact 1-800-MASTERCARD for more information.*

TRAVEL BENEFITS
Travel Accident Insurance

Travel more safely with Travel Accident Insurance. As an eligible cardholder, you and your
dependents are covered automatically with travel accident insurance when the entire
travel fare is charged to your eligible Mastercard account while this insurance is effective.
For more details, please write to the Plan Administrator:
Financial Institution Marketing Group
P.O. Box 31065
Tampa, FL 33631-3065

* Certain terms, conditions and exclusions apply. Visit www.mycardbenefits.com for complete program details.

ACH AUTO PAYMENT AGREEMENT
I (we) hereby authorize First Interstate Bank to initiate withdrawals from the account indicated below to pay on
credit card account number #
.
I (we) agree that your rights in respect to each withdrawal shall be the same as if it were a check drawn on my (our) account and
personally signed by either of us and that you shall be fully protected in honoring such a withdrawal. I (we) further agree that if any
such withdrawal is dishonored with cause, First Interstate Bank shall be under no liability whatsoever if such dishonor results in late
charges or revocation of my (our) card. If funds are not available, this agreement is null and void immediately.

CARDHOLDER NAME
CITY

STATE

ZIP

TRANSIT/ABA NO. __ __ __ __ __ __ __ __ __ Checking  Savings 

ACCOUNT #

(The first 9 numbers from the left at the bottom of your check are your Bank Routing Number.)

Indicate the date each month the payment will be applied to the credit card account:*
(Payment date cannot be between the 6th and 10th of the month.) If blank or if you have Special Billing
Options** payment date will default to the due date.

*If payment falls on a weekend or holiday the payment applies on the following business day.
**Special Billing Options are available for Business Customers only. Contact Payment Services for more information.

The amount of payment for my (our) credit card to be deducted monthly is (check one):
 The minimum required payment amount or percentage as disclosed in the cardholder agreement,

$20.00 dollars or 3%, whichever is greater.

 The total unpaid balance of the account as of statement date.
 Business customers only: The total balance due as of the statement cycle (credits received after

statement cycle will not lower the amount of payment applied. Credits will apply to the next month’s
balance).

 A fixed dollar amount which is greater than the minimum required payment but less than the full unpaid

balance. The fixed dollar amount to be withdrawn monthly is $ _______.____. Write out dollar amount.
___________________________________dollars.

 A fixed percentage of the balance which is greater than the minimum required payment but less than

the full unpaid balance. The fixed percentage of the unpaid balance to be withdrawn monthly is
_________%. Write out percentage amount. _______________________________percentage.

This authority is to remain in full force and effect until I (we) provide First Interstate Bank requesting that a
change be made or termination of this agreement. Notification to change or terminate must be received 30 days
prior to the date you would like the change or termination to take place.
I (we) understand and agree that in order for First Interstate Bank to make payments requested in this authorization form,
I (we) must have the payment amount available in my (our) account. I (we) further understand and agree that First
Interstate Bank shall not be responsible for any act or failure to act on their part, except in the case of gross negligence or
willful misconduct. Furthermore, I (we) agree to hold First Interstate Bank harmless from any claims, liabilities, attorney’s
fees and other costs and expenses of any and every kind and nature which may be incurred by them by reason of their
performance under this Authorization Form.

In addition, I understand that it may take up to 30 days from the date this agreement is received for the
ACH transfers to take effect. I agree I am responsible for any payments during this time frame.
Customer Signature

Date

If you have any questions, please call (888) 833-5434. Fax form to 406-255-5432, or scan and email to
creditcards@fib.com.

Save Money on Higher Interest Credit Cards
Yes! I want to save money by transferring my higher interest rate credit card(s) to my First
Interstate credit card. Please refer to the account terms and conditions for balance transfer
rate and fee information.

Name: ___________________________ Phone: _________________________________
Address:__________________________City______________State______Zip__________
First Interstate Credit Card Number # __ __ __ __ - __ __ __ __ - __ __ __ __ - __ __ __ __
Signature: _______________________________________________________________

Card Issuer #1 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Card Issuer #2 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Card Issuer #3 : ________________________________ Account No. __________________________
Payment Address: ___________________________________________________________________
City: ____________________ State: ________________ Zip: ________________
Amount to be transferred: $ _____________________ Issuer’s Phone No. ____________________

Upon approval, it may take up to three weeks to post the balance transfer transaction. This means
you may need to make a payment to your current account to avoid late payment fees.
Return this balance transfer form to your local branch or mail to:
First Interstate Bank
Credit Card Division
P.O. Box 30918
Billings, MT 59116-0918

